Report No. DODIG-2013-051                  March 4, 2013




    Improvements to Controls Over Cash Are Needed at
     the Army Disbursing Office at Soto Cano Air Base,
                        Honduras
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
ATM                           Automated Teller Machine
CFR                           Code of Federal Regulations
COMA                          Cash and Other Monetary Assets
DDO                           Deputy Disbursing Officer
DFAS                          Defense Finance and Accounting Service
DO                            Disbursing Officer
DRS                           Deposit Reporting System
DSSN                          Disbursing Station Symbol Number
JTF-B                         Joint Task Force-Bravo
LOF                           Loss of Funds
FMR                           Financial Management Regulation
SOP                           Standard Operating Procedure
USAFMCOM                      U.S. Army Financial Management Command
USSOUTHCOM                    U.S. Southern Command
                                     INSPECTOR GENERAL
                                      DEPARTMENT OF DEFENSE
                                      4800 MARK CENTER DRIVE
                                   ALEXANDRIA, VIRGIN IA 22350-1500



                                                                                       March 4, 2013

MEMORANDUM FOR COMMANDER, U.S. SOUTHERN COMMAND
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Improvements to Co ntrols Over Cash Are Needed at the Army Disbursing Office at
         Soto Cano Air Base, Honduras (Report No. DODIG-20 13-051)

We are providing this final report for review and comment. Controls at the Honduras disbursing
office were not adequate to safeguard, account for, document, and report cash. In addition, the
Joint Task Force-Bravo Command did not complete loss of funds investigations. The Honduras
disbursing office had $1.2 million in cash on hand as ofNovember 2, 2011. We considered
management comments on a draft of this report when preparing the final report.

DoD Directive 7650.3 requires that recommendations be resolved promptly. We did not receive
comments from Chief of Staff, U.S. Southern Command on Recommendations 2.a and 2.b.
Comments from the Commander, Joint Task Force-Bravo, were nonresponsive to
Recommendation 5.a. In addition, comments from Defense Finance and Accounting Service,
Indianapolis, were partially responsive or nonresponsive to Recommendations 6, 7 .b, 7 .c (2),
7.c (3), 7.d (1), and 7.d (2). Therefore, we request additional comments on these
recommendations by April 3, 2013. We considered all other comments responsive.

If possible, send a p011able document format (.pdf) file containing your comments to
audfmr@dodig.mil. Pdf copies of your comments must have the actual signature of the
authorizing official for your organization. We are unable to accept the /Signed/ symbol in place
of the actual signature. If you arrange to send classified comments electronically, you must send
them over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8938 (DSN 664-8938).



                                              ~ ~.               J__ , _\
                                              Richard B. Vasquez, CPA
                                              Acting Assistant Inspector General
                                              Financial Management and Rep011ing
Report No. DODIG-2013-051 (Project No. D2011-D000FP-0260.000)                 March 4, 2013


               Results in Brief: Improvements to Controls
               Over Cash Are Needed at the Army Disbursing
               Office at Soto Cano Air Base, Honduras
What We Did                                              appointing investigating officers and the
                                                         inexperience of the DDOs and their 6-month
We determined whether internal controls at the
                                                         rotation caused the problems with the LOF
Army disbursing office on Soto Cano Air Base,
                                                         investigations. The Deputy Commander, JTF-B,
Honduras, were effectively designed and
                                                         also attributed the problems with the
operating adequately to safeguard, account for,
                                                         investigations to the lack of continuity of staff.
document, and report Cash and Other Monetary
Assets (COMA). The Honduras disbursing
                                                         Lastly, the Director, USAFMCOM, did not
office had $1.2 million in cash on hand as of
                                                         provide adequate oversight. The Director stated
November 2, 2011. We also evaluated whether
                                                         that adequate oversight was provided during staff
the U.S. Army Financial Management Command
                                                         assistance visits. However, none of the visits
(USAFMCOM) effectively implemented
                                                         corrected the control issues identified in this
technical oversight and provided assistance to the
                                                         report.
Honduras disbursing office.
What We Found                                            As a result, the Army increased its risk of loss
                                                         due to error, theft, and fraud at the Honduras
Controls at the Honduras disbursing office were
                                                         disbursing office.
not adequate to safeguard, account for,
document, and report cash. Specifically, the then        What We Recommend
deputy disbursing officer (DDO) did not avoid
                                                         Among other recommendations, we
conflicts of interest, properly complete “Security
                                                         recommended corrective actions in the areas of
Container Check Sheets,” and secure cash.
                                                         separation of duties, training, staff assistance
                                                         visits, and improved procedures all of which
This occurred because DDO appointments were
                                                         should improve security over cash. We also
rotated approximately every 6 months and the
                                                         recommended that senior management review
DO did not have adequate standard operating
                                                         the actions of officials responsible for providing
procedures in place. Moreover, the then DDO
                                                         oversight of the Honduras disbursing office,
stated that he was not aware of the requirements
                                                         conducting LOF investigations, and ensuring
and was not trained to perform these duties.
                                                         adequate procedures are in place.
In addition, the disbursing officer (DO) did not         Management Comments and
prepare the report on foreign currency purchased
and improperly revoked and appointed DDOs.
                                                         Our Response
This occurred because he did not have                    We received management comments from the
procedures in place to ensure that the report was        Army and Defense Finance and Accounting
prepared and DDO revocations and appointments            Service that were responsive, partially
were conducted in a timely manner.                       responsive, and nonresponsive. We did not
                                                         receive comments from the U.S. Southern
The Commander, Joint Task Force-Bravo                    Command. We request that management provide
(JTF-B), did not properly complete physical loss         additional comments in response to this report by
of funds (LOF) investigations. The DO staff              April 3, 2013. Please see the Recommendations
stated that the lack of Command involvement in           Table on the next page.

                                                     i
Report No. DODIG-2013-051 (Project No. D2011-D000FP-0260.000)           March 4, 2013


Recommendations Table
       Management                    Recommendations           No Additional
                                    Requiring Comment      Comments Required
Deputy Assistant Secretary of                            1.a and 1.b
the Army (Financial
Operations)
Chief of Staff, U.S. Southern   2.a and 2.b
Command
Director, U.S. Army                                      3
Financial Management
Command
Commander, U.S. Army                                     4
South
Commander, Joint Task           5.a                      5.b, and 5.c
Force-Bravo
Director, Defense Finance       6
and Accounting Service
Indianapolis, Financial
Operations
Disbursing Officer, Defense     7.b, 7.c.(2), 7.c.(3),   7.a, and 7.c.(1)
Finance and Accounting          7.d.(1), and 7.d.(2)
Service Indianapolis,
Disbursing Operations

Please provide comments by April 3, 2013.




                                           ii
Table of Contents

Introduction                                                                  1

      Objectives                                                              1
      Background                                                              1
      Review of Internal Controls                                             3

Finding. Controls at the Army Disbursing Office on the Soto Cano Air Base,
         Honduras, Were Not Adequate                                          4

      Inadequate Controls Over Cash                                           5
      Inadequate Controls Over Foreign Currency Reports and
        DDO Appointments                                                     10
      Untimely Physical LOF Investigations                                   12
      Inadequate Oversight of the Honduras Disbursing Office                 14
      Management Comments on the Finding, and Our Response                   15
      Recommendations, Management Comments, and Our Response                 15

Appendix. Scope and Methodology                                              21
     Use of Computer-Processed Data                                          22
     Prior Coverage                                                          22

Management Comments

      Deputy Assistant Secretary of the Army (Financial Operations)          24
      U.S. Army South                                                        27
      Joint Task Force-Bravo                                                 28
      Defense Finance and Accounting Service                                 29
Introduction
Objectives
The overall objective of the audit was to determine whether internal controls at the Army
disbursing office on Soto Cano Air Base, Honduras (Honduras disbursing office) were
effectively designed and operating adequately to safeguard, account for, document, and
report Cash and Other Monetary Assets (COMA). In addition, we evaluated whether the
U.S. Army Finance Command (now, U.S. Army Financial Management Command
[USAFMCOM]) effectively implemented technical oversight and provided assistance to
the Honduras disbursing office. See the Appendix for a discussion of the scope and
methodology and prior coverage related to the objective.

Background
The Federal Accounting Standards Advisory Board, Statement of Federal Financial
Accounting Standards No. 1, “Accounting for Selected Assets and Liabilities,” March 30,
1993, defines cash as “(a) coins, paper currency and readily negotiable instruments, such
as money orders, checks, and bank drafts on hand or in transit for deposit; (b) amounts on
demand deposit with banks or other financial institutions; and (c) foreign currencies.”
Office of Management and Budget Circular No. A-136, “Financial Reporting
Requirements,” September 29, 2010, defines other monetary assets as gold, special
drawing rights, and U.S. Reserves in the International Monetary Fund.

DoD reported $1.72 billion of COMA on its DoD Agency-Wide Consolidated Balance
Sheet as of September 30, 2011. The Army General Fund COMA represented
$1.43 billion (83.1 percent) of the DoD Agency-Wide COMA amount, of which
$18.7 million was attributable to Army disbursing offices outside the continental United
States that did not previously have oversight by an Army Financial Management Center.
The Army disbursing offices are located in Sinai, Egypt; Soto Cano Air Base, Honduras;
and Riyadh, Saudi Arabia. As of November 2, 2011, the Honduras disbursing office cash
balance was about $1.2 million. See the Appendix for a discussion of our site selection.

The Deputy Assistant Secretary of the Army for Financial Operations issued a
memorandum, “Technical Oversight of Army Finance Operations,” on July 10, 2009.
The memorandum directs USAFMCOM to provide technical oversight and assistance to
finance operations that do not fall under a separate Financial Management Center. At a
minimum, USAFMCOM is required to conduct an annual staff assistance visit to help
train staff, ensure offices have the most current version of finance systems, and ensure
that appropriate internal controls and regulatory compliance are in place.

Disbursing Office
A disbursing office is an activity, or the organizational unit of an activity, whose
principal function consists of the disbursement, collection, and reporting of public funds.
Each disbursing office is assigned a disbursing station symbol number (DSSN) by the



                                             1
U.S. Treasury. The DSSN indicates that authority has been granted to receive and
disburse public funds and issue checks on behalf of the U.S. Treasury.

Disbursing and Deputy Disbursing Officers
Each disbursing office has a disbursing officer (DO) and should have at least one deputy
DO (DDO) position under the direct DO’s cognizance/control. DOs are agents of the
U.S. Treasury that perform disbursing functions and are accountable to the U.S. Treasury
for the cash items in their possession. DOs maintain documents representing the cash for
which they are accountable in their vault or safe and account for them daily on the “Daily
Statement of Accountability” (DD Form 2657) and monthly on the “Statement of
Accountability” (SF 1219). Further, DOs may provide funds to DDOs and paying agents
or authorize DDOs to obtain funds. DDOs report their accountability to the DO on the
“Daily Agent Accountability Summary” (DD Form 2665). Other agents’ and cashiers’
accountability is reported on the “Statement of Agent Officer’s Account”
(DD Form 1081) as a summary of cash transactions and receipts for cash and vouchers on
hand.

Reporting Structure of the Honduras Disbursing Office
The Honduras disbursing office is under the control of the DO for the Defense Finance
and Accounting Service (DFAS) Indianapolis, Disbursing Operations (DSSN 5570). The
DO is accountable for all the funds collected and disbursed at the disbursing office. The
DO is also responsible for appointing and overseeing the DDO for the disbursing office.

The DDO is responsible for appointing staff and conducting the day-to-day operations of
the disbursing office. The DDO and staff engage in foreign currency transactions that
require appropriate translation between foreign and U.S. currencies. In addition, the
DDO and staff engage in accommodation exchanges 1 daily, and normal operating activity
transactions that require the use of both U.S. and foreign currency, sometimes
concurrently in a single transaction.

Effective Controls Over Existence
and Accountability Documents
Although we identified several weaknesses at the Honduras disbursing office, we also
observed instances where disbursing office personnel were performing their duties
correctly. For example, we observed a cash count on November 3, 2011, and the count
agreed with the $1,163,745 cash balance reported on the DD Form 2665. In addition, we
determined that the Honduras disbursing office properly remained within its Cash
Holding Authority. We also determined that the Honduras disbursing office had proper:

    •   reconciliation of the Limited Depository Account,
    •   preparation of the Statement of Designated Depositary Account (SF 1149),


1
 The exchange of U.S. dollars or dollar instruments for foreign currency for the convenience of authorized
personnel or, where permitted, the exchange of foreign currencies for U.S. dollars or dollar instruments.



                                                    2
    •   preparation and documentation of the Key Control Register,
    •   accounting and safeguarding of Treasury checks, and
    •   functioning alarm system for the disbursing office.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We determined that internal
control weaknesses at the Honduras disbursing office existed as defined by DoD
Instruction 5010.40. Specifically, the then 2 and former DDOs, the DO, and the former
Commander did not follow DoD Regulation 7000.14-R, “Financial Management
Regulation” (DoD FMR), for safeguarding, accounting for, documenting and reporting
cash at the Honduras disbursing office. The reasons for inadequate controls were that the
DO did not have adequate standard operating procedures for the disbursing office, and
the DDO was not adequately trained. In addition, the DO did not have procedures in
place for preparing foreign currency reports and for revoking and appointing DDOs.
Furthermore, the JTF-B Commander, did not appoint investigative officers, DDOs were
inexperienced and frequently rotated. Lastly, USAFMCOM staff assistance visits did not
correct the control issues identified in the report. We will provide a copy of the report to
the senior official responsible for internal controls in the Army and DFAS Indianapolis.




2
 The then DDO refers to the DDO that was at Soto Cano Air Base during our audit fieldwork. In January
2012, this DDO transferred to another position.



                                                  3
Finding. Controls at the Army Disbursing
Office on the Soto Cano Air Base, Honduras,
Were Not Adequate
Controls at the Army disbursing office on the Soto Cano Air Base, Honduras (Honduras
disbursing office), were not adequate to safeguard, account for, document, and report
cash. The then and former DDOs did not follow all the requirements of DoD FMR.
Specifically, the then DDO did not avoid conflicts of interest and, instead, improperly
advanced funds to himself from the safe to replenish two automated teller machines
(ATMs). The then DDO also did not properly complete “Security Container Check
Sheet” (SF 702). In addition, the then and former DDOs did not:

    •   use acceptable security containers to store cash for the disbursing office;
    •   conduct semiannual security inspections or provide documentation for any
        previous inspections;
    •   maintain records as required by the DoD FMR; or
    •   report a major physical loss of funds (LOF).
These conditions occurred because DDO appointments rotated approximately every
6 months, and the Honduras disbursing office relied heavily on the transfer of knowledge
from the predecessor DDO to the relieving DDO; however, the transition period was
minimal. In addition, the DO did not have adequate standard operating procedures
(SOPs) to inform the new DDOs. The DO stated he had control of over 100 disbursing
offices and it was not feasible to maintain SOPs for each office. Also, the then DDO
stated that he was not aware of the requirements and was not trained to perform these
duties.

In addition, the DO did not prepare the “Cumulative Report of Foreign Currency
Purchased With U.S. Dollars From Sources Outside the U.S. Government.”
Additionally, the DO revoked the former DDO’s authority well after the new
appointment and improperly appointed the then DDO. These conditions occurred
because the DO did not have procedures in place for preparing cumulative reports and for
revoking and appointing DDOs in a timely manner.

Further, the Commander, Joint Task Force-Bravo (JTF-B), did not complete LOF
investigations for four LOF cases, did not submit one LOF investigation to DFAS, and
did not submit the necessary supporting documentation for two LOF investigations.
DO staff stated that the JTF-B Commander’s not appointing investigating officers,
inexperience of the DDOs in regard to the requirements for reporting and monitoring
LOF, and the 6-month rotation of DDOs caused the problems with the LOF
investigations. The Deputy Commander, JTF-B, stated that the turnover of personnel
was the main problem for not completing LOF investigations.




                                            4
Finally, the Director, USAFMCOM, did not provide adequate oversight of the Honduras
disbursing office. Although the Director stated that USAFMCOM provided adequate
oversight and conducted nine staff assistance visits, including two formal inspections,
none of the visits corrected the control issues identified in the report.

Because of the inadequate controls over cash at the Honduras disbursing office, the Army
increased its risk of loss due to errors, theft, and fraud.

Inadequate Controls Over Cash
The then and former DDOs did not have adequate controls to safeguard, account for,
document, and report cash. Specifically, they did not follow all the requirements of
DoD FMR.

DDO Improperly Advanced Funds to Himself
The then DDO improperly advanced funds to replenish two ATMs on the Soto Cano, Air
Base. The DDO was advancing himself approximately $80,000 biweekly. Furthermore,
the DDO acted concurrently as a DDO and as a paying agent on behalf of the military
banking facility. The DoD FMR, Volume 5, Chapter 2, “Disbursing Offices, Officers,
and Agents,” December 2010, states:

             Do not appoint individuals performing duties as disbursing agents, deputy
             DOs (DDO), cashiers, paying agents, collection agents, change fund
             custodians or imprest fund cashiers involving the custody or disbursement
             of public funds concurrently to other accountable positions involving the
             handling, custody, or accountability for other funds.

This was a lack of segregation of duties because the DDO had custody of both the
accountability documents and the advanced funds. Specifically, the DDO was preparing
and approving a DD Form 1081 to advance funds to himself. The DDO then used these
funds from the disbursing office safe to replenish the two ATMs.

The DDO incorrectly reported these funds on Line 25, “Funds With Subagents,” on his
“Daily Agent Accountability Summary” (DD Form 2665). The DDO should have
prepared a DD Form 165, “Shipment of Funds,” and reported these funds on Line 31,
“Other,” on DD Form 2665. DoD FMR, Volume 5, Chapter 5, “Deposit and Transfer of
Public Funds,” December 2010 states:

             Prepare a DD Form 165 for any shipment of coin or currency, regardless
             of amount, [and the] DO preserves all registry or other carriers’ receipts
             and any other documents incident to the shipment until assured that the
             shipment has been completed and no claims actions should be initiated.

By not reporting these funds on the correct line, the DDO incorrectly reported that these
funds were available for disbursement. Conversely, when funds are reported on Line 31,
they are no longer deemed available for disbursement by the DDO.




                                                   5
Additionally, the DDO should have used a courier to transport funds to the ATMs.
DoD FMR, volume 5, chapter 5, states:

               Any commissioned or warrant officer of the Armed Forces on active duty
               or any individual serving as a courier for the Department of State may
               serve as courier for delivery of funds represented by currency, checks,
               drafts, or money orders. The courier takes all practicable precautions to
               protect the shipment. The courier signs the copy of DD Form 165 retained
               by the shipping officer in the space beneath the block "Delivery Date and
               Time" as a receipt for the shipment.

We did not identify or attribute any LOF to this lack of segregation of duties. We also
determined the DDO obtained an SF 215 “Deposit Ticket,” a Community Bank Wire
Transfer form, and a document from Cashlink 3 to confirm that the military banking
facility reimbursed the Department of the Treasury. However, the opportunity for misuse
and fraud existed because the DDO had custody of both the accountability documents
and the advanced funds. The Commander, JTF-B, should appoint a responsible
individual other than the DDO to replenish the ATMs. In addition, to accurately account
for funds advanced to the ATMs, the DO should ensure the completion of DD Form 165
instead of DD Form 1081.

Incomplete Security Container Check Sheet
The then DDO did not properly complete an SF 702 for the Honduras disbursing office’s
safe. Classified National Security Information, 32 CFR sec. 2001.80 (2011), requires the
SF 702 to be completed whenever the safe is opened and closed. However, the DDO
only initialed the form at the beginning and ending of each day. By the DDO completing
the form at the beginning and ending of the day, it appeared that the safe was open all
day, including when he stepped out or went to lunch. Our observation showed that it was
not actually opened all day; the DDO closed and locked the safe after each entry. The
then DDO took corrective action by completing the SF 702 as required by the CFR.
Therefore, we are not making a recommendation regarding completing the form
whenever the safe is opened and closed.

Unacceptable Security Containers
The then and former DDOs did not use an acceptable safe to store funds for the Honduras
disbursing office. DoD FMR Volume 5, Chapter 3, “Keeping and Safeguarding Public
                         Funds,” August 2011, states that to store currency of $50,000
   DDOs did not use an
                         or more, the disbursing office must “use a burglary resistant
    acceptable safe to
                         safe or vault with at least an Underwriters Laboratories’
    store funds for the
                         classification of Tool-Resistant Safe, TL-30[4] and having a
   Honduras disbursing
                         Group 1R combination lock.” The safe currently in use at
           office.
                         the disbursing office does not have an Underwriters

3
  Cashlink is an electronic cash concentration and information system that provides Federal agencies with
information, via the Internet, to verify deposits, Automated Clearing House (ACH), and Fedwire transfers
as well as adjustment information used to reconcile their accounts.
4
  The numerical value represents the time in minutes that the safe will resist forced entry.



                                                    6
Laboratories’ classification and uses an electronic keypad instead of a Group 1R
combination lock. The Commander, JTF-B, should provide the disbursing office with a
security container that meets DoD FMR requirements.

In addition, the DDO improperly placed $26,363.92 in a security container that only held
a Class 6 rating. DoD FMR, volume 5, chapter 3, states that to store currency and
negotiable instruments with a value of $7,500 to $50,000 the disbursing office must use a
security container with a Class 1 or Class 5 rating, or a burglary-resistant safe with at
least an Underwriters Laboratories’ classification of Tool-Resistant Safe, TL-15, and a
Group 1R combination lock. Class 1 and Class 5 security containers are rated to provide
the greatest protection against forced entry. Although Class 1 and 5 security containers
carry many of the same requirements of a Class 6 security container, the Class 1 and
5 containers carry an additional requirement of forced entry protection. Moreover, the
Class 6 security container used did not have an Underwriters Laboratories’ classification
of TL-15 or a Group 1R combination lock.

The use of the Class 6 security container occurred because the DDO was ill for 4 days
and operations had to continue in his absence. Therefore, the DDO placed $26,363.92 in
a separate security container so the cashier could access the funds and continue daily
operations. However, improper use continued even after the DDO’s return. DoD FMR,
chapter 3, requires DDOs, agents, or cashiers to store the funds entrusted to them in a
safe or adequate container assigned for their exclusive use, and only the assigned DDO,
agent, or cashier may know the combination of the safe or container. The then DDO took
corrective action by removing cashier’s funds from the nonapproved Class 6 container
and placing them in a separate locking compartment in the main safe that only the cashier
can open. Therefore, we are not making a recommendation regarding the use of separate
security containers.

Lack of Semiannual Security Inspections
The then and former DDOs did not conduct semiannual security inspections and the then
DDO could not provide any documentation of previous inspections for the Honduras
disbursing office. The semiannual security inspections are an important part of
disbursing office’s internal controls because they help verify that the office’s physical
security is adequate.

We determined that the physical security at the Honduras disbursing office was not
adequate. DoD FMR volume 5, chapter 3, requires the DO or designee to personally
inspect office security at least semiannually and to keep a record of each inspection.
Chapter 3 provides a list of physical security measures that disbursing offices should
follow. If the DDO had conducted semiannual inspections, he may have determined the
following.

   •   Entrances to the working areas were not marked conspicuously with “Authorized
       Personnel Only” signage.




                                            7
    •   The record of combination changes dated and signed by the accountable
        individual for the safe was attached to the outside of the safe door instead of
        inside the safe.

    •   The DDO did not place the name and phone number of the accountable individual
        on the inside of the vault, safe, or container.

    •   A shield was not attached to the keypad to the safe to limit the possibility of the
        combination being observed.

The DDO took corrective action by posting an “Authorized Personnel Only” sign on all
entrances to the disbursing office, relocating the record of combination changes and
accountable individual information to inside the safe, and adding a shield to the safe’s
combination dial to prevent the combination from being compromised. However, the DO
should conduct semiannual security inspections.

Disbursing Office Did Not Maintain Records
The then and former DDOs did not maintain records at the disbursing office for the
requisite period of time. DoD FMR, Volume 5, Chapter 21, “Disbursing Office
Records,” December 2010, states that disbursing offices must “keep original disbursing
office records and associated papers and supporting documentation for 6 years and
3 months.” For example, we requested DD Form 1081s; DD Form 2665s; cash
verification reports; cash verification team appointment letters; SF 702s; and SF 1149s,
“Statement of Designated Depository Account” for the first business day in October for
2005 through 2010. The following table shows that the Honduras disbursing office
personnel were unable to provide any documents from 2005 through 2007 and were only
able to provide 7 of the 36 requested documents from 2005 through 2010.

                         Table 1. Lack of Disbursing Office Records
              Document                       Oct.       Oct.      Oct.       Oct.         Oct.   Oct.
                                             2005       2006      2007       2008         2009   2010
Statement of Agent Officer’s                   -          -         -          -            x      x
Account (DD Form 1081)
Daily Agent Accountability                      -         -         -          x           x      x
Summary (DD Form 2665)
Cash Verification Reports                       -         -         -          -           -      x1
Cash Verification Team                          -         -         -          -           -      -
Appointment Letters
Security Container Check Sheet                  -         -         -          -           -      -
(SF 702)
Statement of Designated                         -         -         -          -           -      x
Depository Account (SF 1149)
x = documents provided
1
  Cash verification is conducted quarterly. This report was completed in November 2010.



                                                    8
In addition, the Honduras disbursing office’s SOPs incorrectly state that disbursing office
documents are required to be maintained for 5 years and 6 months. The then DDO took
corrective action by updating the SOPs to meet the DoD FMR requirement of 6 years,
3 months. Therefore, we are not making a recommendation regarding record
maintenance.

Loss of Funds Not Properly Reported
The then and former DDOs did not properly report a major physical LOF 5 in the amount
of $3,423. The DoD FMR, Volume 5, Chapter 19, “Disbursing Officer Accountability
Reports,” August 2011, requires that when a loss is discovered, the DDO should record
                                     the loss on DD Form 2665. In January 2010, the
   The then and former DDOs          paying agent failed to close out the DD Form 1081
    did not properly report a        and return all funds and accountable documents to the
      major physical LOF.            DDO before redeployment, as required by DoD FMR,
                                     volume 5, chapter 3. The DoD FMR states that “[a]
DDO, agent, or cashier who will be absent for more than 5 workdays returns all funds
and accountable documents to the DO with properly executed DD Forms 2665 and 1081
before departure.” The DD Form 1081 is a summary of cash transactions and serves as a
receipt for the funds that remain in the custody of the paying agent. Because the paying
agent failed to submit a completed DD Form 1081 and close out his accountability, the
funds in question continued to be carried as “Funds with Subagents” on DD Form 2665
of the then DDO even though the paying agent was no longer stationed in Honduras.

Moreover, the then and former DDOs failed to ensure that the paying agent prepared and
submitted a DD Form 1081 to the DDO no less frequently than monthly, as required by
the DoD FMR, volume 5, chapter 3. Had either of the DDOs followed up with the
paying agent within the required timeframe, the LOF would not have gone undetected
from January 2010 until June 2010. The DoD FMR, Volume 5, Chapter 2, “Disbursing
Offices, Officers, and Agents,” states that DDOs are pecuniarily liable for any losses
from public funds in their possession. See “Untimely Physical LOF Investigations,”
Table 2, LOF investigation number 3 for information on the status of the LOF
investigation.

In addition, even after the LOF was detected, the then DDO incorrectly reported the LOF
in the amount of $3,423 as “Funds with Subagents” (Line 25) instead of “Loss of Funds”
(Line 29) on the DD Form 2665 from June 2010 through November 2011, which
overstated cash on hand and understated LOFs. The then DDO took corrective action by
accurately recording this LOF on DD Form 2665. Therefore, we are not making a
recommendation regarding LOF reporting. However, the Chief of Staff, U.S. Southern

5
  DoD FMR Volume 5, Chapter 6, “Physical Losses of Funds, Erroneous Payments, and Overages,” defines
a major physical loss of funds as “A. Loss of $750 or more; B. Any loss, regardless of the dollar amount,
resulting from a theft; C. Any loss, regardless of the dollar amount, where there is evidence of fraud within
the disbursing office; e.g., embezzlement, or fraudulent acts of disbursing personnel, acting alone or in
collusion with others.”



                                                     9
Command (USSOUTHCOM), should review the actions of officials responsible for
conducting day-to-day operations that resulted in LOF, and based on that review, take
appropriate management action, including holding responsible personnel accountable.

Inadequate Standard Operating Procedures and Training
The then and former DDOs did not follow all the requirements of the DoD FMR because
the DDO appointments rotated approximately every 6 months and the Honduras
disbursing office did not have adequate SOPs. For example, the SOPs did not:

       •   segregate duties for replenishing ATMs,
       •   require completion of the SF 702,
       •   provide security container requirements,
       •   require semiannual security inspections to be conducted,
       •   have the correct time period for document retention,
       •   provide instructions on how to report a LOF, or
       •   require a report on foreign currency purchased to be completed.

The DO stated he had control of over 100 disbursing offices and it was not feasible to
maintain SOPs for each office. Furthermore, the then DDO stated that he was not aware
of the requirements and was not trained to perform these duties. We reviewed the
training course curriculum and determined that the training did not adequately prepare
DDOs to perform the duties described in this report. Specifically, the course curriculum
did not address the DoD FMR requirements we discussed in this report. In addition, the
then DDO attended a weeklong training course at DFAS Indianapolis; however, the
course did not sufficiently address the Deployable Disbursing System. Without adequate
standard operating procedures and training, the Army increased its risk of loss due to
errors, theft, and fraud.

The Commander, U.S. Army South, should require DDOs to attend formal training
provided by USAFMCOM and DFAS Indianapolis on the new disbursing systems or new
policies and procedures. The DO should revise or provide additional training on the
disbursing systems and new policies and procedures to deputy disbursing officers
selected by their commands to attend the deputy disbursing officer training, perform staff
assistance visits to oversee the transfer of accountability when a deputy disbursing officer
is appointed to a disbursing office, and revise the Honduras disbursing office’s SOPs.

Inadequate Controls Over Foreign Currency Reports and
DDO Appointments
The DO did not have adequate controls for Foreign Currency Reports and DDO
appointments. Specifically, he did not follow all the requirements of DoD FMR.

Report on Foreign Currency Purchased Was Not Completed
The DO did not complete the “Cumulative Report of Foreign Currency Purchased With
U.S. Dollars From Sources Outside the U.S. Government.” DoD FMR, Volume 5,
Chapter 16, “Foreign Currency Records and Reports,” February 2011, requires this report


                                            10
to be completed at the end of each quarter. The report is cumulative for the fiscal year
and should be submitted to the supporting DFAS site within 15 calendar days after the
close of each quarter. The cumulative report includes tracking of foreign currency
acquired through accommodation exchange transactions as well as purchases from banks
and other dealers in currency exchange.

The absence of this report was significant because the Army, DFAS, and the Department
of the Treasury were not informed about gains and losses from foreign currency
transactions. In addition, the absence of this report provided an opportunity for currency
conversion fraud. Failing to prepare reports and maintain records of the exchange rate
used for foreign currency purchased and provided allowed foreign currency gain and
losses to go unnoticed. Therefore, the Director, DFAS Indianapolis, Financial
Operations, should review the actions of the officials responsible for having adequate
procedures in place for completing the report on foreign currency purchased, and on the
basis of that review, take appropriate management action, including holding responsible
personnel accountable. In addition, the DO should develop and implement procedures to
require the completion of the report of foreign currency purchased in accordance with the
DoD FMR.

Improper Revocation and Appointment of DDOs
                                The DO improperly revoked the former DDO
     The DO improperly          appointment. Until a proper revocation is performed, the
  revoked the former DDO
                                former DDO continues to have signatory authority over
        appointment.
                                U.S. Treasury funds and continues to be authorized to
conduct business on behalf of the U.S. Government. We determined that the relieving
DDO assumed authority of the disbursing office on February 12, 2011. However, the
former DDO’s appointment was not revoked until November 2, 2011. DoD FMR,
volume 5, chapter 2, requires in all cases where an appointment of a DDO is revoked,
such as at the end of a DDO’s rotation, that the DO issue a notice of revocation of the
DDO’s appointment to the former DDO; DFAS Indianapolis, Disbursing/Debt
Management Policy Division.

The revocation procedure is particularly important because the former DDO continues to
possess signatory authority over the cash accounts until this authority is officially
revoked, which increases the risk for fraud and abuse. For example, if an outgoing
DDO’s appointment is not revoked at the time of departure, the former DDO could write
and cash a U.S. Treasury check that could result in an LOF due to fraud. To preclude
possible fraud from occurring, at the completion of the outgoing DDO’s appointment, the
DO must properly revoke the appointment. In addition, the DO improperly appointed the
relieving DDO. DoD FMR, volume 5, chapter 2, states:

             DOs appoint deputy DOs by formal letter of appointment. The letter states
             the specific duties authorized to be performed by the deputy and includes
             the statement “I acknowledge that I am strictly liable to the United States
             for all public funds under my control,” and a statement that confirms that
             the appointee has been counseled with regard to pecuniary liability and has
             been given written operating instructions.



                                                 11
Specifically, we determined that the DDO became accountable for the Honduras
disbursing office funds in February 2011; however, his appointment was not
official until August 2011. In addition, the formal letter of appointment for the
Honduras disbursing office DDO position did not include the specific duties to be
performed, a statement that the DDO would be strictly liable to the United States
for all public funds under his control, or a statement that the appointee had
received counsel with regard to pecuniary liability. A proper appointment is
important because without it, the DDO would not be pecuniarily liable for any
losses.

The improper revocation and appointment of DDO role occurred because the DO stated
he relied on the commanders at JTF-B to provide revocation and appointment
notifications to generate the necessary documents to revoke and appoint the DDOs.
However, the DO did not have procedures in place to ensure that the appointments and
revocations were conducted in a timely manner at remote locations, such as the Honduras
disbursing office. As a result the Army increased its risk of loss due to errors, theft, and
fraud. Therefore, the Director, DFAS Indianapolis, Financial Operations, should review
the actions of the officials responsible for having adequate procedures in place for
completing DDO revocations and appointments, and on the basis of that review, take
appropriate management action, including holding responsible personnel accountable. In
addition, the DO should develop and implement procedures to ensure that DDO
revocations and appointments are conducted in a proper and timely manner.

Untimely Physical LOF Investigations
The Commander, JTF-B did not complete LOF investigations for four LOF cases, did not
submit one LOF investigation to DFAS Indianapolis, and did not submit the necessary
supporting documentation for two LOF investigation. The DoD FMR, volume 5,
chapter 6, states, “Within 90 days after the loss is discovered (unless an extension has
been authorized), the Investigating Officer (IO) must submit the Report of Investigation
(ROI) through the Commander (who appointed the IO) to [DFAS-Disbursing/Debt
Management Policy Division, DFAS Indianapolis].” We determined that the disbursing
office had seven open LOF investigations, totaling $11,065, that exceeded the 90-day
requirement without authorized extensions. The JTF-B Command did not make
completing the LOF investigations a priority until we conducted our audit. The following
table provides a breakdown of open LOF investigations and when the report was due.




                                            12
             Table 2. Honduras Disbursing Office Loss of Funds Investigations
        LOF                                     LOF                 Report               Actual
    Investigation           Loss              Discovery            Due Date            Report Date
      Number              Amount                Date               to DFAS              to DFAS
         1              $3,085.00            05/25/2010           08/23/2010              None(1)
         2               2,390.21            05/13/2010           08/11/2010           06/17/2010(2)
         3               3,423.28            05/13/2010           08/11/2010           06/17/2010(2)
         4                 931.00            06/22/2010           09/20/2010              None
         5                 193.87(3)         06/28/2010           09/26/2010              None
         6               1,021.46            07/12/2010           10/10/2010              None
         7                  20.00(3)         08/27/2010           11/25/2010              None
        Total           $11,064.82
1
  Command completed an investigation on 12/17/2010; however, it did not submit the report to DFAS.
2
  Command did not submit the necessary supporting documentation for these two LOF investigations and
are considered open by DFAS.
3
  Any amount where there is an indication of theft or fraud is treated as a major LOF. These LOF’s were
being reviewed in connection with other Major LOF’s because they were under the same DDO and there
was a risk of theft or fraud.

The seven LOF investigations that were discovered in 2010 were unresolved for an
average of 617 days before DFAS Indianapolis, Disbursing Operations, requested the
assistance of USAFMCOM to resolve these open investigations. 6 On July 12, 2012,
USAFMCOM recommended that the Honduras disbursing office classify two LOF cases
as minor LOFs and initiate investigations, reinitiate four major LOF investigations, and
coordinate with Army Criminal Investigation Command to obtain a status report, and if
closed, forward results to DFAS. As of July 12, 2012, all seven of these investigations
were ongoing.

We asked DFAS Indianapolis, Disbursing Operations, and the JTF-B Deputy
Commander why the investigations were not conducted or completed in a timely manner.
DFAS personnel stated that lack of JTF-B Command involvement to appoint
investigating officers, inexperience of the DDOs in regard to the requirements for
reporting and monitoring LOFs, and the 6-month rotation of DDOs caused the problems
with the LOF investigations. The Deputy Commander, JTF-B, stated that rotation of
personnel was the main cause of the problems with the LOF investigations. The Deputy
Commander also stated that personnel changeover dictated continuity, and during the
time periods of the LOFs, the Chief Judge Advocate, investigating officers, and the DDO
all rotated without a proper “battle handoff.”

As a result, the Army increased its risk of loss due to errors, theft, and fraud. The Chief
of Staff, USSOUTHCOM, should review the actions of officials responsible for
conducting the seven LOF investigations, and on the basis of that review, take
appropriate management action, including holding responsible personnel accountable.
6
    DFAS Indianapolis, Disbursing Office, requested assistance on February 27, 2012.



                                                     13
The Director, USAFMCOM, should continue to provide assistance with the LOF
investigations as necessary until all LOF investigations have been completed. In
addition, the Commander JTF-B, should complete all open LOF investigations and
provide a final report to the DFAS Indianapolis, Disbursing/Debt Management Policy
Division as soon as possible. The DO should revise standard operating procedures to
ensure the DDOs inquire into whether there are any open LOF investigations.

Inadequate Oversight of the Honduras Disbursing Office
The Director, USAFMCOM, did not provide adequate oversight of the Honduras
disbursing office. The Deputy Assistant Secretary of the Army (Financial Operations)
memorandum, “Technical Oversight of Army
Finance Operations,” July 10, 2009, requires             The Director, USAFMCOM,
USAFMCOM, at a minimum, to conduct an annual               did not provide adequate
staff assistance visit to help train staff, ensure        oversight of the Honduras
offices have the most current version of finance               disbursing office.
systems; and validate that appropriate internal
controls and regulatory compliance are in place. The Director, USAFMCOM, stated that
USAFMCOM provided adequate oversight. He stated that nine staff assistance visits,
including two formal inspections, occurred between April 2010 and November 2011.
However, only the formal inspections addressed disbursing operations and the first
formal inspection was not conducted until a year after the release of the memorandum.
Furthermore, the second formal inspection was not conducted until after our site visit,
which was more than a year from the first visit.

Although the report from the first inspection indicated that internal controls and
disbursing were susceptible to fraud and addressed the lack of semiannual inspections; it
did not specifically address the conflict of interest, the unacceptable security containers,
the incomplete security container check sheet, the lack of record retention, or that the
report of foreign currency purchased was not being prepared. The report from the second
inspection, which was performed after our site visit, did not identify any of these
conditions either, except it also found no record of semiannual physical security
inspections. In addition, the report stated that the staffing level of the office minimally
met separation of duties and internal control requirements.

With the 6-month rotation of DDOs, an annual staff assistance visit may not provide
sufficient oversight. Without sufficient oversight, the Army increased its risk of loss due
to errors, theft, and fraud. The Deputy Assistant Secretary of the Army (Financial
Operations) should reissue the memorandum, “Technical Oversight of Army Finance
Operations,” July 10, 2009. In addition, review the actions of officials responsible for
conducting staff assistance visit, and based on that review, take appropriate management
action, including holding responsible personnel accountable.




                                            14
Management Comments on the Finding
and Our Response
The Deputy Assistant Secretary of the Army (Financial Operations) provided comments
regarding the improper advancement of funds.

Deputy Assistant Secretary of the Army
(Financial Operations) Comments
The Deputy Assistant Secretary stated that since our audit, the U.S. Treasury fielded a
new system worldwide, the Deposit Reporting System (DRS), which negates the former
practice of the DDO approving the advancement of funds to himself. He stated that for
Honduras, a technician inputs the deposit into the DRS for the deposit to the ATM with
the DDO’s approval, which eliminates the requirement to use a DD Form 1081 or DD
Form 165. The complete text of the Deputy Assistant Secretary’s comments is in the
Management Comments section of the report.

Our Response
The use of the DRS should eliminate the improper advancement of funds and the need for
DD Form 1081 and DD Form 165. However, the DO should ensure the completion of
DD Form 165 as agreed until DRS is implemented and operational at the Honduras
disbursing office.

Recommendations, Management Comments,
and Our Response
1. We recommend that the Deputy Assistant Secretary of the Army (Financial
Operations):

      a. Reissue the memorandum, “Technical Oversight of Army Finance
Operations,” July 10, 2009.

       b. Review the actions of the officials responsible for conducting annual staff
assistance visits at the Honduras disbursing office; and on the basis of that review,
take appropriate management action, including holding responsible personnel
accountable.

Deputy Assistant Secretary of the Army
(Financial Operations) Comments
The Deputy Assistant Secretary of the Army (Financial Operations) agreed with the
recommendations. The memorandum was to be reissued and coordinated with DFAS to
ensure that the oversight visits performed by USAFMCOM and DFAS complement each
other at 6-month intervals. Estimated completion date was February 2013. In addition,
the Deputy Assistant Secretary was to review the actions of responsible individuals and
take appropriate management action if warranted. Estimated completion date was
March 2013.



                                           15
Our Response
Comments from the Deputy Assistant Secretary were responsive, and no further
comments are required.

2. We recommend that the Chief of Staff, U.S. Southern Command:

         a. Review the actions of the officials responsible for conducting the day-to-day
operations at the Army disbursing office on Soto Cano Air Base, Honduras, which
resulted in loss of funds and other deficiencies identified in this report, and on the basis
of that review, take appropriate management action, including holding responsible
personnel accountable.

        b. Review the actions of the officials responsible for conducting the seven loss of
funds investigations at JTF-B, Honduras, and on the basis of that review, take appropriate
management action, including holding responsible personnel accountable.

Management Comments Required
The Chief of Staff, U.S. Southern Command, did not comment on the recommendations.
We request that the Chief of Staff provide comments on the final report.

3. We recommend that the Director, U.S. Army Financial Management Command,
continue to provide assistance with the loss of funds investigations to the
Commander, Joint Task Force-Bravo, as necessary.

U.S. Army Financial Management Command Comments
The Deputy Assistant Secretary of the Army (Financial Operations), responding for the
Director, USAFMCOM, agreed, stating that all seven cases cited in the draft report were
submitted to DFAS for adjudication. Completion date was November 19, 2012.

Our Response
The Deputy Assistant Secretary’s comments for Recommendation 3 were responsive and
no further comments are required.

4. We recommend that the Commander, U.S. Army South, require newly
appointed deputy disbursing officers and current deputy disbursing officers not
trained in the new disbursing systems and new policies and procedures to attend
formal training provided by U.S. Army Financial Management Command and the
Defense Finance and Accounting Service Indianapolis, Disbursing Operations.

U.S. Army South Comments
The Chief of Staff, U.S. Army South, responding for the Commander agreed, stating that
U.S. Army South would continue to coordinate with USAFMCOM and DFAS
Indianapolis, Disbursing Operations, for the DDOs identified to attend the additional or
revised training developed by the DFAS Indianapolis, DO. He also stated that U.S. Army



                                             16
South would continue to work with the organizations identified to improve the process.
Estimated completion date was January 31, 2013.

Our Response
Comments from the Chief of Staff were responsive, and no further comments were
required.

5. We recommend that the Commander, Joint Task Force-Bravo:
        a. Appoint an appropriate individual other than the deputy disbursing
officer to be responsible for replenishing the automated teller machines.
       b. Provide an appropriate security container to the disbursing office.

        c. Complete all seven loss of funds investigations and submit a final report
to the Defense Finance and Accounting Service Indianapolis, Disbursing/Debt
Management Policy Division, for final determination on whether to grant or deny
relief to the responsible deputy disbursing officer.

Joint Task Force-Bravo Comments
The Commander, JTF-B, agreed with the recommendations. He stated that once the
DFAS Indianapolis, Disbursing Officer, advises JTF-B, he would appoint an individual
other than the DDO to replenish the ATMs.

The Commander also stated that a new building was planned that would contain a vault
and safe that would be in compliance with the regulatory guidelines of “DoD Financial
Management Regulation,” Volume 5, Chapter 3, “Keeping and Safeguarding Public
Funds,” August 2011. Construction was expected to be completed within 16 months.

In addition, the Commander appointed seven investigating officers to investigate the
seven outstanding losses. Final reports for all seven outstanding losses were submitted to
DFAS Indianapolis, Special Review Office, for adjudication.

Deputy Assistant Secretary of the Army
(Financial Operations) Comments
Although not required to comment, the Deputy Assistant Secretary of the Army
(Financial Operations), explained that JTF-B was to transition to the new DRS. The new
system established the use of a technician/noncommissioned officer to replenish the
ATM with the approval of the DDO.

Our Response
We considered the comments from the Commander, JTF-B, on Recommendation 5.a. to
be nonresponsive. As of February 22, 2013, DRS is not implemented and operational at
the Honduras disbursing office. The appointment of a custodian for the ATM deposits is
at the discretion of the Commander, he does not need to wait until being advised by the



                                           17
DFAS Indianapolis, Disbursing Officer. We ask the Commander to reconsider his
response and provide his revised comments to the final report.

The Commander’s comments on Recommendations 5.b and 5.c were responsive, and no
further comments were required.

6. We recommend that the Director, Defense Finance and Accounting Service
Indianapolis, Financial Operations, review the actions of the officials responsible for
having adequate procedures in place for completing the “Cumulative Report of
Foreign Currency Purchased With U.S. Dollars From Sources Outside the
U.S. Government” and ensuring that DDO revocation and appointments are
conducted in a timely manner, and on the basis of that review, take appropriate
management action, including holding responsible personnel accountable.

Defense Finance and Accounting Service Comments
The Director, DFAS Indianapolis, responding for the Director, DFAS Indianapolis,
Financial Operations, partially agreed. He stated that DFAS Indianapolis, Disbursing
Operations, would require the Honduras disbursing office to complete site-specific
foreign currency reports. He also stated that the occurrence in which the DDO
appointment was not revoked in a timely manner was an isolated incident and that the
DO reiterated the importance of timely submissions of revocations and appointments to
his staff and sites supported by Disbursing Operations. In addition, he stated that
quarterly reviews within DFAS Indianapolis, but outside of Disbursing Operations, have
shown revocations and appointments are occurring in a timely manner. Estimated
completion date was March 31, 2013.

Our Response
We consider the comments from the Director, DFAS Indianapolis, to be nonresponsive.
Although he stated that the Honduras disbursing office will be required to complete site-
specific foreign currency reports, he did not explain how this would be required.
In addition, he did not state that the Director, DFAS Indianapolis, Financial Operations
would review the actions of officials and take appropriate action to hold personnel
accountable if appropriate. We ask the Director, DFAS Indianapolis, Financial
Operations, provide comments on the final report.

7. We recommend that the Disbursing Officer, Defense Finance and Accounting
Service Indianapolis, Disbursing Operations:
        a. Revise or provide additional training on the disbursing systems and new
policies and procedures to deputy disbursing officers selected by their commands to
attend the deputy disbursing officer training.
      b. Perform staff assistance visits to oversee the transfer of accountability
when a deputy disbursing officer is appointed to a disbursing office.




                                           18
      c. Revise standard operating procedures to ensure that the Deputy
Disbursing Officer:
              (1) Prepares DD Form 165 instead of DD Form 1081 to accurately
account for funds advanced for the automated teller machines.
               (2) Conducts semiannual security inspections.
               (3) Upon arrival, inquires to determine whether any loss of funds
investigations remain open.
       d. Develop and implement procedures to ensure that responsible officials:
             (1) Prepare the “Cumulative Report of Foreign Currency Purchased
With U.S. Dollars From Sources Outside the U.S. Government.”
              (2) Conduct deputy disbursing officer revocations and appointments
in a proper and timely manner.

Defense Finance and Accounting Service Comments
The Director, DFAS Indianapolis, Financial Operations, responded for the DFAS,
Disbursing Officer. He agreed with Recommendation 7.a, stating that DFAS
Indianapolis would coordinate with USAFMCOM and ensure that training would
sufficiently address the Deployable Disbursing System. Estimated completion date was
September 30, 2013.

The Director partially agreed with Recommendation 7.b. He stated that the DDO
appointment orders already state the responsibilities of the position. In addition, any
training provided to new DDOs by DFAS Indianapolis already covered the transfer of
agent accountability and how to report loss of funds. Additionally, assistance was
available from DFAS Indianapolis as needed. Recommended action was completed.

The Director agreed with Recommendations 7.c.1, 7.c.2, and 7.c.3. He stated that the
Disbursing Operations Procedures Manual would be updated to reflect the use of DD
Form 165. In addition, he stated that the DFAS Indianapolis, Disbursing Operations,
would perform an annual review in FY 2013 and that USAFMCOM would perform an
additional annual review, resulting in semiannual security inspections. Additionally, he
stated that the requirements for the transfer of agent accountability process must be
completed before the new DDO accepted accountability for the funds. Upon discovery of
a potential loss of funds, the new DDO was responsible for ensuring that the loss was
reported on the predecessor’s summary of accountability reported to DFAS Indianapolis,
Disbursing Operations. Estimated completion date was September 30, 2013.

The Director agreed with Recommendations 7.d.1 and 7.d.2. He stated that the DDO
would be responsible for submitting the, “Cumulative Report of Foreign Currency
Purchased With U.S. Dollars From Sources Outside the U.S. Government,” to DFAS
Indianapolis quarterly. In addition, he stated that the DO reiterated the importance of



                                            19
timely submissions of revocations and appointments to his staff and sites supported by
Disbursing Operations. Estimated completion date was March 31, 2013.

Our Response
The Director’s comments on Recommendation 7.a were responsive, and no further
comments were required.

Although the Director partially agreed with Recommendation 7.b, his comments were
nonresponsive. He did not state whether DFAS would conduct staff assistance visits to
oversee the transfer of accountability when a DDO was appointed to a disbursing office.

The Director’s comments on Recommendation 7.c.1 were responsive, and no further
comments were required. Although he agreed with Recommendations 7.c.2 and 7.c.3, we
consider his comments partially responsive and nonresponsive. His comments on
Recommendation 7.c.2 only stated that security inspections would be conducted in
FY 2013 and said nothing about security inspections beyond FY 2013. He should ensure
that semiannual inspections would be performed by the DDO on a permanent basis. His
comments on Recommendation 7.c.3 did not state that the standard operating procedures
would be revised to include a requirement that the DDO inquire about whether any loss
of funds investigations remained open. The transfer of agent accountability process does
not explicitly require the incoming DDO to inquire about the status of open loss of funds
investigations.

Although the Director agreed with Recommendations 7.d.1 and 7.d.2, we considered his
comments as partially responsive. His comments on Recommendation 7.d.1 did not
provide the procedures that would be developed and implemented to ensure that the,
“Cumulative Report of Foreign Currency Purchased With U.S. Dollars From Sources
Outside the U.S. Government,” was submitted to DFAS Indianapolis quarterly. His
comments on Recommendation 7.d.2 did not provide the procedures that would be
developed and implemented to ensure that the revocation and appointment of the DDO
position occurred in a timely manner.

We request that the Disbursing Officer, DFAS Indianapolis, Disbursing Operations,
provide comments on recommendations 7.b, 7.c.2, 7.c.3, 7.d.1, and 7.d.2 of the final
report.




                                           20
Appendix. Scope and Methodology
We conducted this performance audit from July 2011 through November 2012 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient and appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We reviewed applicable guidance from the following:

   •   Title 31, United States Code, “Money and Finance;”
   •   Code of Federal Regulations;
   •   DoD Financial Management Regulation, volume 5, chapters 1-3, 10, 11, 14-16,
       19, 21, 33, and 34; and
   •   JTF-B, Finance Office, standard operating procedures.

We initially selected three Army disbursing offices to audit. Specifically, we selected the
three disbursing offices that did not have oversight by an Army Financial Management
Center. The Army disbursing offices are located in Sinai, Egypt; Soto Cano Air Base,
Honduras; and Riyadh, Saudi Arabia. However, due to security concerns in Egypt, we
selected two disbursing offices at Camp Arifjan, Kuwait, to replace the Sinai, Egypt,
location. We reannounced our audit to limit our review to the audit work completed at
the Honduras disbursing office. In addition, we decided to announce a separate project to
audit the disbursing offices in Kuwait and Saudi Arabia.

We visited DFAS Indianapolis, USAFMCOM, and the Army disbursing office at the
Soto Cano Air Base, Honduras. We physically reviewed the internal controls over Army
COMA at the Honduras disbursing office as of November 2011.

We observed conditions, interviewed disbursing office staff, verified existence of forms,
reports, and other documents, and reviewed and analyzed documents to determine
whether they were prepared properly, followed applicable criteria, and were supported.
We observed a cash count of about $1.2 million and confirmed the existence of cash
reported on the DD Form 2665 as of November 2, 2011. We also confirmed collection
and payment documents to ensure there were sufficient controls over cash collections and
disbursements. In addition, we verified the daily and monthly statements of
accountability for completeness, accuracy, and existence of collection and disbursement
documentation, and we reviewed the disbursing office’s reconciliation of its limited
depository accounts. Additionally, we reviewed and analyzed the following documents
dated between November 2003 and January 2012 from the Honduras disbursing office for
existence, accuracy, completeness, and timeliness:

   •   Alarm/Intrusion Detection Record (DA Form 4930)
   •   Appointment/Termination Record (DD Form 577)
   •   ATM Deposit Ticket (SF 215)

                                            21
   •   Bank Statements
   •   Cash Collection Voucher (DD Form 1131)
   •   Check Registers
   •   Currency Exchange Record (DD Form 2664)
   •   Daily Agent Accountability Summary (DD Form 2665)
   •   Foreign Currency Control Record (DD Form 2663)
   •   Key Control Register and Inventory (DA Form 5513)
   •   Nomination/Approval/Termination of Disbursing Officer/Deputy-Disbursing
       Officer (CDS-I Form 3117-R)
   •   Operating Agreement for Honduras ATMs
   •   Safe Combination Change Ledger
   •   Security Container Check Sheet (SF 702)
   •   Specimen Signatures (TFS Form 3023)
   •   Staff Assistance Visit Records
   •   Statement of Accountability (SF 1219)
   •   Statement of Agent Officer’s Account (DD Form 1081),
   •   Statement of Designated Depositary Account (SF 1149)
   •   Training Certifications
   •   Vault Ledgers
   •   Voucher Control Log (DD Form 2659)

We reviewed security programs for the Joint Task Force-Bravo Finance Office. We also
reviewed documentation for seven open LOF investigations that were provided to us.

Use of Computer-Processed Data
We used computer-processed data for our audit. Specifically, we obtained SF 1219s and
DD Form 2665s from the Deployable Disbursing System. We determined data reliability
by comparing SF 1219 and DD Form 2665 line item amounts to cash held by the DDO
and to supporting documentation. We did not find errors that would preclude the use of
computer-processed data to meet audit objectives or that would change the findings and
recommendations in the report.

Prior Coverage
During the last 5 years, the Department of Defense Inspector General (DoD IG), the
Army Audit Agency (AAA), and the Special Inspector General for Iraq Reconstruction
(SIGIR) have issued nine reports discussing Cash and Other Monetary Assets.
Unrestricted DoD IG reports can be accessed at http://www.dodig.mil/audit/reports.
Unrestricted Army reports can be accessed from .mil and gao.gov domains over the
Internet at https://www.aaa.army.mil/. Unrestricted SIGIR reports can be accessed at
http://www.sigir.mil/directorates/audits/auditreports.html

DoD IG
DoD IG Report No. D-2010-034, “Internal Controls Over the Army, General Fund Cash
and Other Monetary Assets Held in Southwest Asia,” January 8, 2010

                                          22
DoD IG Report No. D-2009-062, “Internal Controls Over DoD Cash and Other Monetary
Assets,” March 25, 2009

DoD IG Report No. D-2009-003, “Internal Controls Over Army General Fund, Cash and
Other Monetary Assets Held Outside of the Continental United States,” October 9, 2008

DoD IG Report No. D-2008-123, “Internal Controls Over Navy General Fund, Cash and
Other Monetary Assets Held Outside of the Continental United States,” August 26, 2008

DoD IG Report No. D-2008-121, “Internal Controls for Air Force General Fund Cash
and Other Monetary Assets,” August 18, 2008

DoD IG Report No. D-2007-028, “Controls Over Army Cash and Other Monetary
Assets,” November 24, 2006

Army
AAA Report No. A-2011-0059-FFM, “Army CONUS Cash and Other Monetary Assets,
Deputy Assistant Secretary of the Army,” February 9, 2011

SIGIR
SIGIR Report No. 10-020, “Development Fund for Iraq: Department of Defense Needs
to Improve Financial and Management Controls,” July 27, 2010

SIGIR Report No. 08-012, “Attestation to Development Fund for Iraq Cash in the
Possession of the Joint Area Support Group-Central,” March 13, 2008




                                         23
Deputy Assistant Secretary of the Army
(Financial Operations) Comments



                                   DEPARTMENT OF THE ARMY
                             OFFICE OF THE ASSISTANT SECRETARY OF THE ARMY
                                FINANCIAL MANAGEMENT AND COMPTROLLER
                                           109 ARMY PENTAGON
                                        WASHINGTON DC 2031G-0109


            REPLY TO
            ATTEHTlON OF


      MEMORANDUM FOR ASSISTANT INSPECTOR GENERAL FOR FINANCIAL
      MANAGEMENT AND REPORTING, OFFICE OF THE DEPARTMENT OF DEFENSE
      INSPECTOR GENERAL, 400 ARMY NAVY DRIVE, ARLINGTON, VA 22202-4704

      SUBJECT: Improvements to Controls over Cash Are Needed at the Army Disbursing
               Office at Soto Cano Air Base, Honduras (Project No. D2011-DOOOFP-
               0260.000)


      1. Reference your memorandum dated 9 November 2012, subject as above.

      2. We appreciate the opportunity to comment on the subject draft report and respond to
      the issues noted by your auditors on the controls over cash at the Army Disbursing
      Office at Soto Cano Air Base in Honduras. I have also incorporated the U.S. Army
      Financial Management Command's response as they are a Field Operating Agency
      under my purview. It was reassuring to note that your auditors on November 3, 2011
      were able to verify that cash on hand in the amount of $1 ,163,745 balanced with the DD
      Form 2665 and that the Honduras disbursing office properly remained within its Cash
      Holding Authority.

      3. We would like to clarify one issue within your report as is more of a technical issue
      as opposed to a higher command issue. In your draft report you stated that the "DDO
      improperly advanced funds to himself ' resulting in "a lack of segregation of duties
      because the DDO had custody of both the accountability documents and the advanced
      funds." This procedure was being used by the DDO to deposit funds into the military
      banking facility ATM as an internal control mechanism due to the inability of the
      Deployable Disbursing System to track deposits in transit. Since your audit the
      Treasury has fielded a system that negates this former practice and the DDO will
      transition to the new process.




                                     ~11~
                                                 mes J. Watkins
                                    .)Jeputy Assistant Secretary of the Army
                                              (Financial Operations)
      Attachment




                                                                 24
                     DoDIG Project No. D2011·DOOOFP-0260.000

                 Improvements to Controls Over Cash Are Needed
          at the Army Disbursing Office at Soto Cano Air Base, Honduras

    Department of t he Army Comments to t he Draft Report Recommendations


Recommendation 1: We recommend that the Deputy Assistant Secretary of the Army
(Financial Operations):

    a. Reissue the memorandum, "Technical Oversight of Army Finance Operations,"
July 10, 2009.

    b. Review the actions of the officials responsible for conducting annual staff
assistance visits at the Honduras disbursing office; and on the basis of that review, take
appropriate management action, including holding responsible personnel accountable.

Army Response 1a: Concur. The Deputy Assistant Secretary of the Army (Financial
Operations) will reissue the memorandum "Technical Oversight of Army Finance
Operations." The memorandum will be coordinated with Defense Finance and
Accounting Service (DFAS) to ensure oversight visits performed by the two respective
organizations complement each other at 6 month intervals.
ECD: February 2013.

Army Response 1b: Concur. The Deputy Assistant Secretary of the Army (Financial
Operations) will review the actions of responsible individuals conducting staff assistance
visits and take appropriate management action if warranted.
ECD: March 2013

Recommendation 3: We recommend that the Director, U.S. Army Finance Command,
continue to provide assistance with the loss of funds investigations the Commander,
Joint Task Force-Bravo. as necessary.

Army Response: Concur. The Director, U S. Army Financial Management Command,
previously the U.S. Army Finance Command, has provided assistance to Joint Task
Force- Bravo resulting in all seven cases cited in the draft report being submitted to
DFAS for adjudication.
ECD: Completed 19 November 2012.




                                            ·2·




                                                          25
Recommendation Sa: We recommend the Commander, Joint Task Force-Bravo
appoint an appropriate individual other than the deputy disbursing officer to be
responsible for replenishing the automated teller machine.

Army Response: Army is only providing clarification of previous business practice and
implementation of new Treasury System, Deposit Reporting System (DRS) which
negates the old business practice.

     a. The procedure previously used by the DDO of advancing funds to him using a
DD Form 1081 was simply used as the document to substantiate the deposit of funds
into the automated teller machine (ATM) until a deposit ticket was received from the
military banking facility. The funds that the DDO places in the ATM were actually a
deposit in- transit and not an advance. The deposit in transit function was not available
in the Deployable Disbursing System (DDS) so the DDO used the DD Form 1081 as the
internal control mechanism to account for the funds pending receipt of a confirmed
deposit by the military banking facility.

     b. Since your audit the Disbursing Office at Soto Cano Air Base has converted
along with all sites worldwide to the new Treasury deposit system, DRS, as part of the
Over the Counter Channel Application (OTCnet) lAW Treasury's government-wide
mandate. Under this system. the depositing activity inputs the deposit ticket
electronically to DRS and the bank subsequently goes into the system and confirms the
deposit, at which point it is reported to the Transaction Reporting System (TRS) which
replaces the collections side of Cashlink. Under DRS, there must be a separate input
and approval at the depositing activity. In addition, the system assigns the deposit
ticket number at the time of input.

    c. For Honduras, a technician/NCO makes the input into DRS for the deposit to the
ATM and the DDO approves it (thus two persons involved for separation of duties).
Since the deposit ticket number Is established in DRS at the input/approval point, the
deposit can be recorded in DDS the same day as the physical deposit is made into the
ATM. The Bank of America San Antonio operation then subsequently confirms the
deposit in DRS after the fact j ust as they do for all of the community banks under the
World-wide Overseas Military Banking Contract. This eliminates the requirement for
using a DD Form 1081 to the DDO or someone else as well as any issues with
recording a deposit in-transit or advance to agent in DDS.




                                            3·




                                                         26
U.S. Army South Comments



                                       DEPARTMENT OF THE ARMY
                                  HEADQUARTERS, UNITED STATES ARMY SOUTH
                                            4130 STANLEY ROAD
                                      FORT SAM HOUSTON TX 78234-2726
            REPLY TO
            ATTENTION OF
                                                                                  DEC 1 0 2012
     ARSO-CS


     MEMORANDUM FOR Department of Defense Inspector General (DODIG), ATTN: Program
     Director, Financial Management and Reporting, 4800 Mark Center Drive, Alexandria, VA
     22350-1500

     SUBJECT: DODIG Draft Report- Improvements to Controls Over Cash are Needed at the
     Army Disbursing Office at Soto Cano Air Base, Honduras, Project No. D20 11-DOOOFP-
     0260.000


     l. US Army South concurs with Recommendation 4. ECD: 31 Jan 13.

        a. We wi ll continue to coordinate with the US Army Finance Command (USAFMCOM) and
     the Defense Finance and Accounting Service~ Indianapolis (OFAS-IN), Disbursing Operations
     for the Deputy Disbursing Offi cers (DDOs) identified to attend the additional or revised training
     referenced in Recommendation ?a.

        b. In addition, we will identify the training for the DDO in the Worldwide Individual
     Augmentation System (WIAS), as determined by USAFMCOM and DFAS-IN, when submitting
     our next personnel request, and will continue to work with the organizations identified to
     improve the process.




     FOR THE COMMANDER:




                                                   ~=~d-::1
                                                    Colonel, GS
                                                    Chief of Staff




                                                                     27
Joint Task Force-Bravo Comments




                                   DEPARTMENT OF THE DEFENSE
                                     HEADQUARTERS. JOINT TASK FORCE·BMVO




  •
                                         SOTO CANO AIR BASE, HONDURAS
                                                 APOAA 34042

              EI'LYTO
              lTEl\'TI ON OF


      JTFB-CDR                                                                       10 December 2012


      MEMORANDUM FOR Department of Defense Office of the Inspector General, Financial
      Management and Reporting Directorate, Financial Resources Division

      SUBJECT: Management Comments in Response to Project No. D20 11-DOOOFP-0260.000,
      Improvements to Controls Over Cash Are Needed at the Army Disbursing Office at Soto Cano
      Air Base, Honduras


      I . Purpose. This memorandum is intended to demonstrate the Joint Task Force-Bravo (JTFB)
      Commander agrees with the 3 recommendations provided to him by the DoD IG. For each
      recommendation, a plan of action is provided to provide increased internal controls.

      2. Recommendation S(a). To avoid the conflict created by the Deputy Disbursing Officer (DDO)
      advancing funds to himself from the safe to replenish two automated teller machines (ATMs),
      upon being advised to do so by Central Disbursing, the JTFB Commander will appoint an
      individual other than the DDO to replenish the A TMs.

      3. Recommendation 5(b}. To provide an acceptable security container for storing cash, a new
      building is planned to be constructed for the DMPO. Within this building, a vault will be built in
      compliance with the regulatory guidelines of DoD FMR Volume 5, Chapter 3. Additionally, a
      safe will be placed within this vault. This safe wi ll also satisfy the requirements of DoD FMR
      Volume 5, Chapter 3. Construction is expected to be completed within 16 months.

      4. Response to Recommendation S(c). In an effort to complete all Physical Loss of Funds
      Investigations, the JTFB Commander has appointed 7 investigating officers to investigate the 7
      outstanding losses. Final reports for all 7 have been submitted to the office of Special Review at
      DFAS Indianapolis.




                                                       ~
                                                       COL. US Army
                                                       Commanding




                                                                      28
Defense Finance and Accounting Service Comments



                    DEFENSE FINANCE AND ACCOUNTING SERVICE




  •
                                    8899 E:AST 56TH STRE:E:T
                                  INDIANAPOLIS. INDIANA <16249




      DFAS-JBKIIN


      MEMORANDUM FOR DIRECTOR, DEPARTMENT OF DEFENSE, OFFICE OF
                       INSPECTOR GENERAL

      SUBJECT: Draft Report, Improvements to Controls Over Cash Arc Needed at the Army
               Disbursing Office at Soto Cano Air Base, Honduras
               (Project D20 11-DOOOFP-0260.00)

         The Defense Finance and Accounting Service Indianapolis is providing management
      comments for the Draft Report.




      Attachment:
      As stated




                                          www dfa:! mil
                                    Your Financial Partner 0 Work




                                                                    29
  Improvements to Controls Over Cash Are Needed at the Army Disbursing
                    Office at Soto Cano Air Base, Honduras
                     (Project No. D2011-DOOOFP-0260.000)

Recommendation 6: We recommend that the Director, Defense Finance and
Accounting Service Indianapolis (DF AS-IN), Financial Operations, review the
actions of the officials responsible for having adequate procedures in place for
completing the "Cumulative Report of Foreign Currency Purchased With U.S.
Dollars From Sources Outside the U.S. Government" and ensuring that Deputy
Disbursing Officer (DDO) revocation and appointments are conducted in a timely
manner, and on the basis of that review, take appropriate management action,
including holding responsible personnel accountable.

Management Comments: Partial Concur. The DFAS-IN Disbursing Operations
will require the Honduras Disbursing Office to complete the site-specific
"Cumulative Report of Foreign Currency Purchased With U.S. Dollars From
Sources Outside the U.S. Government" quarterly and submit to Disbursing
Officer, OF AS-IN, Central Disbursing.

The case where the DDO appointment was not revok,ed in a timely manner was an
isolated incident. The Disbursing Officer reiterated t!be importance of timely
submission of revocations and appointments to his staff and sites supported by
Disbursing Operations. The process of DDO revocation and appointment has been
reviewed to ensure they are conducted in a timely manner. In addition, quarterly
reviews with statistical sampling perf01med by an organization within DFAS-lN,
but outside of Disbursing Operations, have shown revocations and appointments
are occurring in a timely manner.

Standard operating procedures (SOPs) are inherently a function of the unit in
charge of the mission. The U.S. Army South is in command of the Honduras
Mission and is responsible for maintenance of the SOPs. Upon request from
Army, DFAS-fN will provide guidance and assistance.

Estimated Completion Date: March 31,2013

Recommendation 7a: We recommend that the Disbursing Officer, DFAS-TN,
Central Disbursing: Revise or provide additional training on the disbursing
systems and new policies and procedures to deputy disbursing officers selected by
their commands to attend the deputy disbursing officer training.

Management Comments: Concur with comment. DFAS-IN will coordinate
with USAFMCOM to ensure training for new DDOs sufficiently addresses the
Deployable Disbursing System prior to reporting for duty as a DDO.




                                                      30
Estimated Completion Date: September 30, 20 13

Recommendation 7b: We recommend that the Disbursing Officer, DFAS-IN,
Central Disbursing perform staff assistance visits to oversee the transfer of
accountability when a deputy disbursing officer is appointed to a disbursing office.

Management Comments: Partially concur. The appointment orders signed by
DDOs state the responsibilities of the position. Additional assistance is available
from DFAS-IN on an as needed basis.

In addition, any training provided to new DDOs by DFAS-IN includes the
requirements for the Transfer of Agent Accountability and the reporting
mechanism when a loss of funds is discovered. Upon request from USAFMCOM,
DFAS-IN will provide additional advice and assist in transferring accountability
when a DDO is appointed to a disbursing office.

Completion Date: Action Complete

Recommendation 7c: We recommend that the Disbursing Officer, DFAS-IN,
Central Disbursing revise standard operating procedures to ensure U1at the Deputy
Disbursing Officer:
(1) Prepares DD Form 165 instead ofDD Form 1081 to accurately account for
funds advanced for the automated teller machines.
(2) Conducts semiannual security inspections.
(3) Upon arrival, inquires to determine whether any loss of funds investigations
remain open.

Management Comments: Concur. DFAS-IN Disbursing Operations will:
(I) update the Disbursing Operations Procedures Manual to reflect the use ofthc
Shipment ofFunds (DD 165).
(2) DFAS-IN Disbursing Operations will perform an annual review in FY 20 I3.
The USAFMCOM will perform an additional annual review, resulting in semi-
annual security inspections (in agreement with USAFMCOM SRO). A review of
all Loss of Funds Investigations will occur during these two reviews.
(3) Requirements for the Transfer of Agent Accountability process must be
completed prior to the new DDO accepting accountability for the funds. This
process includes a thorough review of agent advances, funds, checks, and other
negotiable instruments that make up the site's accountability. Upon discovery of a
potential Loss of Funds, the new DDO is responsible tor ensuring that it is
accurately reported on the predecessor's business and reported to DFAS-IN
Disbursing Operations.


                                         2




                                                       31
Estimated Completion Date: September 30, 2013

Recommendation 7d: We recommend that the Disbursing Officer, DFAS-fN,
Central Disbursing: Develop and implement procedures to ensure that responsible
officials:
(!)Prepare the "Cwnulativc Report of Foreign Currency Purchased With U.S.
Dollars From Sources Outside the U.S. Government."
(2) Conduct deputy disbursing officer revocations and appointments in a proper
and timely manner.

Management Comments: Concur with comment.
(l) As stated in our comments to Recommendation 6, the DDO will be responsible
for submitting the "Cumulative Report of Foreign Currency Purchased With U.S.
Dollars From Sources Outside the U.S. Government" to DFAS-JN on a quarterly
basis.
(2) As stated in our comments to Recommendation 6, the Disbursing Officer has
reiterated lhe importance of timely submission of revocations and appointments to
his staff and sites supported by Disbursing Operations.

Completion Date; March31, 2013




                                                     32
